              OFFICE OF
              INSPECTOR GENERAL
              U.S. DEPARTMENT OF THE INTERIOR


                                                                                          August 21,2013

Memorandum

To:            Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up
               Office ofFinancial Management

From:          Michael P. Colombo         ~-- ~ /                   e---80
               Western Regional Ma~for Audits, Inspections, and Evaluations

Subject:       Verification Review ofRecommendations for the Evaluation Report,
               "Whereabouts Unknown" (WR-IS-OST-0006-2009, June 2010)
               Report No. WR-VS-OST-0019-2013

        The U.S. Department of the Interior Office oflnspector General (OIG) has completed a
verification review of the three recommendations presented in the subject evaluation report. The
objective of the verification was to determine whether the Office of the Special Trustee for
American Indians (OST) implemented the recommendations as reported to the Office of
Financial Management (PFM), Office ofPolicy, Management and Budget. PFM reported to OIG
when OST had addressed and provided supporting documentation for each of the three
recommendations in the subject report. Based on our review, we determined that all three
recommendations have been resolved and implemented.

Background

       Our June 2010 evaluation report, "Whereabouts Unknown," contained three
recommendations pertaining to the management of Individual Indian Money (liM) accounts and
coordination between OST and the Bureau oflndian Affairs (BIA).

        In a memorandum dated August 9, 2010, OST and BIA concurred with
Recommendations 1 and 3 and partially concurred with Recommendation 2. They stated that
implementing a policy with a priority system based on specific dollar amounts would be unfair to
all liM account holders. Based on this response, we considered Recommendations 1 and 3
resolved and unimplemented and Recommendation 2 unresolved and unimplemented. On
February 24, 2012, PFM reported to OIG that OST and BIA had implemented all
recommendations; PFM then closed the three recommendations.

Scope and Methodology

      The scope of this review was limited to determining whether OST took action to
implement our recommendations. To accomplish our objective, we reviewed the supporting



                        Office of Audits, Inspections, and Evaluations I Sacramento, CA
documentation that OST officials provided and discussed actions taken relating to each of the
three recommendations.

        We did not perform any site visits or conduct fieldwork to determine whether OST had
corrected the underlying deficiencies that we initially identified. As a result, this review was not
conducted in accordance with the Generally Accepted Government Auditing Standards issued by
the Comptroller General of the United States or the Quality Standards for Inspection and
Evaluation as put forth by the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       Based on the information provided, we determined that all three recommendations have
been resolved and implemented.

       Recommendation 1: Develop and implement procedures that improve the quality and
       frequency of communication between OST, BIA, and Tribal Social Services to settle
       unresolved supervised trust accounts. This includes developing and implementing
       procedures that provide BIA Social Services offices across the country access to the OST
       beneficiary call center's tracking system.

       Action Taken: OST and BIA agreed to hold conference calls on the first Wednesday of
       every quarter. Participants of these meetings discuss collaborative efforts, protected
       supervised and restricted liM accounts, and joint training.

       In addition, OST has provided BIA with access to its trust beneficiary call center. To
       facilitate this transition, OST designated a contact person to aid in training BIA field
       staff. Along with access, OST also provided guidelines to BIA for use of the call center.

       Recommendation 2: Identify located Whereabouts Unknown high-dollar account
       holders who are waiting for assessments by Social Services or title changes by the Land
       Title and Records Office, and prioritize resolution of these cases.

       Action Taken: OST and BIA determined that a policy with a priority system based on
       specific dollar amounts would be unfair and decided that they would instead base the
       service level on the need of the individual account holder. OST and BIA developed three
       levels of priority: critical, major, and normal. They define the "critical" category as liM
       account holders who are at risk for exploitation or who lack resources for basic needs or
       emergencies; appointments are scheduled for these individuals within 3 working days.
       They define "major" as liM account holders with ordinary or routine need; appointments
       are scheduled for these individuals within 5 working days. They define "normal" as liM
       account holders who need case management service but not account disbursement;
       appointments are scheduled for these individuals within 10 working days. In all three
       levels, action is required on the application within 30 days.




                                                                                                   2
       Recommendation 3: Coordinate with top officials at the U.S. Department of Health and
       Human Services and the U.S. Social Security Administration to ensure that Medicaid and
       Supplemental Security Income eligibility requirements are applied consistently for
       restricted trust account holders with supervised accounts.

       Action Taken: The U.S. Department of Health and Human Services provided guidance
       to State Medicare Directors on implementing the American Recovery and Reinvestment
       Act of 2009. This guidance provided additional clarification for the application of
       Medicaid, the Social Security Act, and the Children's Health Insurance Program
       eligibility requirements.

Conclusion

       We informed OST and BIA officials of the results of this review in an email on July 18,
2013. OST and BIA declined to schedule an exit conference.

       If you have any questions about this report, please contact me at 916-978-5653.

cc:    Nancy Thomas, Audit Liaison Officer, Office of Financial Management
       Patrick McHugh, Audit Liaison Officer, Office of Financial Management
       Michael Oliva, Audit Liaison Officer, Bureau oflndian Affairs
       Michele Singer, Principal Deputy Special Trustee for American Indians, Office of the
        Special Trustee for American Indians
       Helen Riggs, Chief of Staff, Office of the Special Trustee for American Indians




                                                                                                 3
